Office of Inspector General
U.S. Department of the Interior




Inspection Report:
BLM and MMS Beneficial Use Deductions




Report No. CR-IS-MOA-0004-2009
March 2010
The Office of Inspector General promotes
excellence, integrity, and accountability
in DOI programs. With fewer than 300
employees, the organization is driven by
a keen sense of mission and dedicated to
providing products and services that impact
DOI mission results.
                    United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                     Washington, DC 20240



                                                                                   MAR 0 8 2010


Memorandum

To:            Secretary Salazar

From:          Mary L. Kendall
               Acting Inspector General

Subject:       Inspection Report: BLM and MMS Beneficial Use Deductions
               (Report No. CR-IS-MOA-0004-2009)

       This memorandum transmits our report detailing the results of our inspection of
beneficial use deductions for onshore and offshore oil and gas . Our review was prompted by two
ongoing Office of Inspector General (OIG) investigations into allegations that companies
claimed royalty deductions for beneficial use of gas as part of their lease agreements without
meeting the requirements for claiming these deductions.

        We found that the Bureau of Land Management (BLM) and the Minerals Management
Service (MMS) failed to carry out effective oversight and management of the beneficial use
program to ensure that all royalty income due to the Treasury was collected. As outlined in our
findings, deficiencies in the beneficial use program as currently managed potentially cost the
Government significant lost income. We found a substantial amount of gas claimed as beneficial
use, although the use of oil was minimal. We estimated that the total value of royalty-free
beneficial use gas in calendar year 2008 was $1.16 billion, with a corresponding potential royalty
value of$145 million. We also found 43 instances in which companies claimed more than 100
percent of their production as beneficial use deductions.

       Approvals are not usually required for beneficial use and, typically, beneficial use of oil
and gas is estimated rather than measured. Both bureaus fail to coordinate approval
requirements, and both lack a verification process also. We recommend five steps that BLM and
MMS should take to reduce the risk of lost royalties associated with beneficial use deductions
and improve the accuracy of recording and reporting.

        We ask that you inform us of your course of action regarding our recommendations
within 30 days. Should you have any questions about this report, please do not hesitate to
contact me at (202) 208-5745.
cc:   Deputy Secretary
      Assistant Secretary, Land and Minerals Management
      Director, Minerals Management Service
      Director, Bureau of Land Management
Inspection Report:
BLM and MMS Beneficial Use Deductions
Executive Summary



   T    he Department of the Interior (DOI)
        plays a key role in managing and en-
suring the Nation’s energy supply. Offshore
and onshore operations on federal and Indian
lands account for 26 percent of the natural gas
and 32 percent of the oil produced annually in
the United States. In fiscal year 2008, the sales
value of oil and gas produced by companies
with leases to operate on federal and Indian
lands and offshore amounted to almost $100 bil-
lion, generating royalties of $12.6 billion to the
Federal Government. These royalties along with
other revenues collected by the Department’s
Minerals Management Service (MMS) consti-
tute one of the largest non-tax sources of income
to the United States Treasury. With energy
demand, especially for natural gas, projected
to increase steadily over the coming decades,
MMS must perform strong, efficient, and consis-
tent oversight to ensure that every royalty dollar
owed to American taxpayers is accounted for
and collected from the companies that extract
valuable energy resources from public lands and
the waters off the nation’s coastline.

    Unfortunately, in a practice involving on-
shore and offshore oil and gas production, MMS
as well as DOI’s Bureau of Land Management
(BLM) have failed to carry out effective over-
sight and management to ensure that all royalty
income due to the Treasury is collected. This
practice, referred to as “beneficial use,” is the
subject of our inspection report. As outlined in
our findings, the deficiencies in the beneficial
use program are potentially costing the Govern-
ment significant lost income. We previously
notified BLM and MMS of the need for change



                                                     3
    but, to date, no real action has been taken. There-
    fore, in this report, we outline five steps that
    MMS and BLM should take immediately to fix
    these deficiencies.


    Beneficial Use:
    Practice and Concern


         A   s part of their lease agreements, com-
             panies that drill on federal and Indian
    lands and offshore are allowed to claim royalty
    deductions on the portion of the oil and gas they                       Data obtained from the Energy Information Administration
    produce to run their on-site operations, such as                        http://www.eia.doe.gov/oiaf/forecasting.html. This data pertains to
                                                                            nationwide demand.
    using natural gas to power drilling and pumping.1
    This use of royalty free oil and gas is referred to                     reported by lease operators was $1.16 billion,
    as “beneficial use.”                                                    with a potential royalty value of $145 million.
                                                                            (Oil, on the other hand, was minimal, with an
        Recently, the Office of Inspector General                           estimated total value of approximately $22,000
    (OIG) has been concerned about companies                                and a royalty value of less than $3,000.) The U.S.
    claiming beneficial use deductions without                              Energy Information Administration forecasts that
    meeting the requirements for claiming these                             demand for natural gas in the country will rise
    royalty deductions, or even receiving approval                          steadily, increasing by eight percent over the next
    from the Department. Moreover, we have been                             two decades. This fact underscores the impor-
    concerned about the inability of MMS to deter-                          tance of strong and efficient oversight of benefi-
    mine whether companies have allowable benefi-                           cial use, particularly of natural gas.
    cial use deductions.
                                                                                Unfortunately, over the years the Depart-
        Because of these concerns, we conducted                             ment’s bureaus and programs responsible for
    an inspection of onshore and offshore oil and                           overseeing leasing, production, operator compli-
    gas operations to determine the extent of benefi-                       ance, and royalty collection have done a poor job
    cial use and to identify management controls                            of monitoring and verifying beneficial use deduc-
    over the practice. We performed our inspec-                             tions, and have failed to coordinate their oversight
    tion work from July 2009 to October 2009,2 and                          responsibilities, leading to the very real potential
    conducted data analysis on reported beneficial use                      for significant amounts of lost royalties to the
    information for the period January 1, 2009,                             United States Government.
    to March 31, 2009.
                                                                                Three different Department programs are in-
       From our work we estimated that in calendar                          tegral to the beneficial use process. The Offshore
    year 2008, the total value of beneficial use gas                        Energy and Minerals Management (OEMM)
    1	 The Mineral Leasing Act of 1920 and the Outer Continental            program, a part of MMS, oversees offshore oil
    Shelf Lands Act of 1953 both state that royalties are due when oil
    or gas is removed or sold from the lease. The Department of the
    Interior and the courts have interpreted this as allowing oil and gas   2	 We performed our work in accordance with the Quality
    to be used royalty free on a lease or agreement site to fuel produc-    Standards for Inspections issued by the President’s Council on
    tion operations as long as eligibility requirements are met.            Integrity and Efficiency.




4
and gas leasing, production, and operator com-
pliance. Onshore oil and gas leasing, however,
is overseen by BLM, which also is responsible
for monitoring onshore production and ensuring                                         Onshore
                                                                                       $277.7
operator compliance. The collection of royalties                                       million
– both for offshore and onshore operations – is
                                                                       Offshore
the responsibility of the Minerals Revenue Man-                        $885.9
agement (MRM) program, also a part of MMS.                             million

    In an environment of divided duties and
uncoordinated policies, and where beneficial use
is employed widely by lessee companies, we
found that BLM and MMS give little attention
to ensuring accurate reporting of beneficial use
                                                      Information for this chart came from data obtained from MMS.
by onshore and offshore oil and gas producers,
or to verifying that deductions are claimed           Mcf (thousand cubic feet) of gas during this pe-
for legitimate purposes. We found that                riod – enough natural gas to heat 650,000 homes
agencies do not: (1) provide adequate and             in the United States for one year. We estimated
consistent guidance among agencies or offices;        the market value of that gas at $201 million with
(2) consistently require companies to obtain          a corresponding potential royalty value of $25
prior approval for beneficial use deductions;         million. Based on actual volume information for
(3) ensure accurate measurement of beneficial         calendar year 2008, we estimated the total value
use; or (4) require verification of reported          of beneficial use gas for that year to be $1.16 bil-
beneficial use deductions.                            lion and the potential royalty value to the Govern-
                                                      ment to be $145 million.
    With no measurement and verification pro-
cess in place and a failure to coordinate between         As the pie chart illustrates, more than three-
BLM and MMS, companies have the opportuni-            quarters of the market value was for offshore
ty to exploit the vulnerabilities of the beneficial   beneficial use. This is due to the substantially
use program and potentially pay fewer royalties       greater power needs of offshore platforms, which
than they otherwise owe to the Treasury. This         are self-sustaining cities, compared to smaller
has been substantiated by ongoing OIG inves-          onshore production operations.
tigations into underpaid royalties by onshore
companies that have claimed beneficial use for            Overall, the beneficial use of oil was negli-
purposes not allowed by BLM.                          gible in relation to gas, totaling only 127 barrels
                                                      of oil during the three-month sample period. We
                                                      estimate the market and royalty values of this oil
Companies Claim Substantial                           to be $5,000 and $680 respectively. The annual
Beneficial Use Deductions for Gas                     value would be approximately $22,000 with a
                                                      royalty value of less than $3,000. As a result, we

   T    he beneficial use of natural gas was sub-
        stantial during our three-month sample
period from January 1, 2009, through March
                                                      focused primarily on beneficial use of gas.


31, 2009. Lessees’ beneficial use was claimed
on 9,485 properties, amounting to 46.26 million




                                                                                                                     5
    Findings And                                          with beneficial use requirements. Further, BLM’s
                                                          and OEMM’s decision not to require prior ap-
    Recommendations                                       proval leaves MRM with no way to verify that the
                                                          beneficial use volumes the companies claim on
                                                          their production reports are in fact allowable. For
    Bureaus Fail to Coordinate, Causing                   example, OIG investigations were conducted after
    Inconsistent Guidance                                 allegations that companies claimed beneficial use
                                                          without meeting BLM’s requirements and without
         BLM and MMS are inconsistent on how to           approval, thus resulting in lost royalties.
    properly report beneficial use deductions. This
    leads to inadequate monitoring and weak or                These investigations demonstrate that the
    nonexistent oversight, and a potential loss to the    bureaus are not consistently sharing information
    Government of significant royalty payments.           necessary to identify possible abuse of benefi-
    MRM’s Minerals Production Reporter Handbook           cial use deductions. BLM and MMS would both
    lists codes to standardize and facilitate lessee      benefit from access to data documenting all prior
    application reviews. The Handbook gives Dis-          written approvals for beneficial use. The OIG’s
    position Code 20 as the code lessees should cite      Management Advisory of June 11, 2009 recom-
    when reporting products used on, or for, the          mended that BLM and MMS jointly develop
    benefit of lease or agreement operations that         and implement a notice and verification process
    have prior approval from BLM or OEMM. This            for the approval of deductions for beneficial
    requirement, however, is inconsistent with the        gas used on leases. BLM and MMS agreed with
    practices of both BLM and OEMM, neither of            this recommendation.
    which generally require prior approval for lessee
    companies as long as the companies comply with            BLM’s Notice to Lessee 4A, which defines
    eligibility requirements.                             beneficial use and the circumstances under which
                                                          it may apply, is the primary guidance for onshore
        BLM policy is that companies have automatic       lessee beneficial use determinations. Some BLM
    approval to use oil or gas for beneficial use for     state offices have issued additional supplemental
    circumstances covered in the bureau’s guidance,       guidance. The BLM Wyoming state office is-
    such as using the fuel to power drilling rig equip-   sued additional guidance that includes instruc-
    ment. If a company wishes to claim beneficial         tion memoranda and “Dear Operator” letters to
    use for a circumstance not covered in BLM’s           clarify some beneficial use issues. This initiative
    guidance, or for one specifically requiring prior     addressed information gaps in the absence of a
    approval – such as using natural gas as a drilling    national policy, but it also highlights inconsisten-
    medium or reinjection of natural gas – it must        cies among the states.
    apply for and receive prior approval from BLM.
    OEMM, on the other hand, does not require any
    approvals for beneficial use.                         Recommendation
        Without a written approval process signify-       1.	 BLM and MMS develop and implement
    ing that either BLM or OEMM has agreed to the            clear, consistent, national beneficial use
    beneficial use, neither agency can quickly identify      guidance and requirements, as detailed
    companies with leases and agreements taking              in the June 11, 2009 OIG Management
    beneficial use deductions. The agencies also are         Advisory. Such guidance should
    unable to ensure that companies are complying            include a requirement for prior written




6
   approvals for all beneficial use that            not greater than the production. Identifying and
   contain a description of the equipment           reporting the buy-back as beneficial use is mis-
   involved, as well as an estimated vol-           leading and, as a result, MMS cannot accurately
   ume of the gas and oil designated for            identify how much beneficial use is truly being
   beneficial use purposes.                         used offshore.

Agency Guidance Contributes to                      Recommendations
Inaccurate Reporting
                                                    2.	 MMS and BLM develop and imple-
    While lack of agency coordination has led          ment controls to identify and research
to inconsistent federal guidance, such guidance        instances where companies report more
also may lead to inaccurate reporting. In our          than 100 percent of oil and gas produc-
sample period, we found 43 instances in which          tion as beneficial use.
companies claimed more than 100 percent of
their production as beneficial use deductions.      3.	 MMS develop a separate code for buy-
Collectively, these instances accounted for             back volumes and require operators to
814,547 Mcf of gas with an approximate market           use this code in order to promote accu-
and royalty value of $3.5 million and $440,000          rate reporting of both beneficial use and
respectively. The highest percentage claimed            buy-back volumes.
was 555 percent. The instances in which the
companies reported more than 100 percent of
their production as a beneficial use deduction      Poor Controls and Lack of
raise serious concerns.                             Verification Encourage
                                                    Misreported Data
    We informed MMS and BLM of these 43 in-
stances. After researching the lessee companies,         Since BLM and MMS do not require compa-
MMS responded that only 1 of the 43 instances       nies to measure the amount of gas or oil used for
was truly an instance of misreporting by an on-     beneficial use, companies have the potential to
shore company. In 42 offshore instances referred    misrepresent the amount of resources they claim
to as “buy-back” transactions, companies pur-       as beneficial use. For example, a company could
chased resources from a pipeline to be used to      report only the volume of oil or gas required to
maintain lease productivity. One example of a       run on-site lease equipment while actually taking
buy-back transaction would be when a company        more oil and gas to use for unallowable purposes.
stops production during a storm, closing down       Because oil or gas required for beneficial use at
platforms and evacuating people, then needs to      a lease site is not measured, neither BLM nor
purchase gas from the pipeline to have sufficient   MMS would have a way of detecting this poten-
power to restart on-site operations.                tial misreporting. Currently, if beneficial use is
                                                    measured it is only because the company chooses
    MMS instructs operators to identify these       to do so on its own. Companies typically estimate
buy-back transactions by using the code for         their usage based on the equipment employed at
beneficial use. Although we found 42 instances      the lease site.
in which the buy-back exceeded gas production,
there may be many other situations in which             Although BLM personnel in one state office
buy-back is reported as beneficial use and yet is   said that beneficial use is a problem and has the




                                                                                                        7
    potential to be misused, no formal review or veri-    Conclusion
    fication process exists to detect such problems.
    In the 43 instances in which companies claimed
                                                          Strong Controls Needed to Ensure
    more than 100 percent of their production as
    beneficial use deductions, 42 were not actually
                                                          Accurate Reporting of Beneficial Use
    beneficial use deductions. In the case of the one
    onshore instance, BLM informed us that the                BLM officials informed us that the produc-
    company is undergoing a production review for         tion verification inspections they conduct ensure
    having misreported an entire year of oil and gas      that the amount of oil or natural gas reported as
    production. Any instance in which companies re-       beneficial use is reasonable based on the equip-
    port more than 100 percent of their production as     ment on site. We do not believe relying on such
    a beneficial use deduction should trigger a review.   production inspections is adequate for monitoring
    Although this may only indicate reporting errors,     and verifying onshore beneficial use. Based on
    fraudulent activity could also be the case. There     our ongoing evaluation of BLM’s Inspection and
    are no systems checks to detect and flag these        Enforcement program, we know that production
    instances for further review by BLM and MMS.          inspections are conducted primarily on higher
                                                          producing leases, and then typically only once a
        Since approvals generally are not required,       year. Lower producing leases, such as those only
    MRM staff do not have a way to identify les-          reporting enough production to run the lease op-
    sees who were denied beneficial use on their          erations, may not be inspected for several years.
    leases or agreements. As discovered during one
    OIG investigation, a company could be denied a            Offshore companies are required to maintain
    beneficial use deduction by BLM but still report      records supporting beneficial use estimates for
    the deduction to MRM. This increases the risk         two years. In spite of this requirement, as OEMM
    that companies not allowed to take beneficial use     officials informed us, offshore inspectors do not
    deductions in fact may do so.                         verify beneficial use estimates or review com-
                                                          pany records. OEMM also informed us that they
                                                          believe theft or misuse of oil or gas offshore is
    Recommendations                                       highly improbable due to technological and logis-
    4.	 BLM and MMS develop and implement                 tical safeguards. Offshore gas would have to be
       a joint verification process that includes a       transported either through metered pipelines or on
       comparison of reported beneficial use              a vessel employing technology that could convert
       volumes to actual measured volumes.                the gas to a liquid for purposes of transportation.
                                                          Such technology currently is not used on the
    5.	 BLM develop and implement a system                Outer Continental Shelf.
        to review all denied beneficial use ap-
        plications to ensure that beneficial use              We agree that there is higher risk of theft or
        deductions are not being claimed on               misreporting in connection with onshore benefi-
        those properties.                                 cial use. We believe, however, that in order to
                                                          safeguard valuable public energy assets and to en-
                                                          sure that all royalties owed to American taxpay-
                                                          ers are in fact paid, there must be strong controls
                                                          in place for accurate recording and reporting of
                                                          beneficial use by companies holding Federal oil
                                                          and gas leases.




8
    Summary of Recommendations                 Appendix
	   1. BLM and MMS develop and                 Objective, Scope And Methodology
    implement clear, consistent, national
    beneficial use guidance and require-           The objective of this review was to conduct
    ments, as detailed in the June 11, 2009    an inspection of the onshore and offshore oil and
    OIG Management Advisory. Such              gas beneficial use deductions in order to deter-
    guidance should include a requirement      mine the extent of beneficial use deductions and
    for prior written approvals for all ben-   identify weaknesses in BLM or MMS’ controls
    eficial use that contain a description     over beneficial use.
    of the equipment involved, as well as
    an estimated volume of the gas and oil         The initial scope included any leases or
    designated for beneficial use purposes.    agreements taking the beneficial use deductions
                                               for the time period of January 1, 2009 – March
	   2. MMS and BLM develop and imple-          31, 2009. The scope was expanded to include
    ment controls to identify and research     any leases or agreements taking the beneficial
    instances where companies report           use deductions for calendar year 2008. To ac-
    more than 100 percent of oil and gas       complish our objective we did the following:
    production as beneficial use.
                                               ▪ Reviewed statutory and regulatory
	   3. MMS develop a separate code for             requirements.
    buy-back volumes and require opera-
    tors to use this code in order to pro-     ▪ Reviewed MMS and BLM policies
    mote accurate reporting of both benefi-        and procedures.
    cial use and buy-back volumes.
                                               ▪ Analyzed information reported by industry
	   4. BLM and MMS develop and imple-             to the bureaus.
    ment a joint verification process that
    includes a comparison of reported ben-     ▪ Interviewed BLM and MMS personnel.
    eficial use volumes to actual measured
    volumes.                                   ▪ Conducted a site visit at the BLM Buffalo 		
                                                  Field Office.
	   5. BLM develop and implement a sys-
    tem to review all denied beneficial use    ▪ Selected a sample period of January 1,
    applications to ensure that beneficial        2009 to March 31, 2009 and conducted
    use deductions are not being claimed          data analysis on the reported beneficial
    on those properties.                          use information which included:

                                                  	   ◦ Determining the volume of ben-
                                                      eficial use claimed for our sample
                                                      period.

                                                  	   ◦ Determining the number of leases
                                                      that claimed 100 percent or more
                                                      beneficial use.




                                                                                                 9
        	   ◦ Identifying any trends in the reported    produce both renewable and nonrenewable energy
            information.                                on federal lands. The BLM ensures that proposed
                                                        projects meet all applicable environmental laws
        	   ◦ Calculating the market values for         and regulations. Once projects are approved, the
            both gas and oil by multiplying the         BLM is responsible for ensuring that developers
            beneficial use volume reported on the       and operators comply with use authorization re-
            Oil and Gas Operations Report by the        quirements and regulations. Although the Bureau
            average monthly gas or oil market           of Indian Affairs issues mineral leases on Indian
            price for the three sample months as        lands, the BLM approves and supervises mineral
            reported by the U.S. Energy Informa-        operations on these lands.
            tion Administration.

        	   ◦ Calculating the royalty values by 		      Minerals Management Service
            multiplying the market value by 	
            the royalty rate of 12.5 percent.               MMS, a bureau in the U.S. Department of
                                                        the Interior, is comprised of two major programs:
     ▪ Selected an expanded sample period of 		         Minerals Revenue Management (MRM) and Off-
         January 1, 2008 to December 31, 2008 for       sore Energy and Minerals Management (OEMM).
         gas and conducted an analysis to:

        	   ◦ Determine the amount of onshore           Minerals Revenue Management
            and offshore volumes.
                                                             The MRM collects, accounts for and distrib-
        	   ◦ Determine the volume of an entire         utes revenues associated with offshore and on-
            year’s worth of claimed beneficial use      shore oil, gas and mineral production from leased
            deductions.                                 federal and Indian lands. Additionally, the MRM
                                                        is responsible for ensuring that the Nation’s fed-
        	   ◦ Calculate the market values for           eral and Indian energy and mineral revenues are
            gas by multiplying the beneficial           accurately reported and paid in compliance with
            use volume reported on the Oil and          laws, regulations, and lease terms.
            Gas Operations Report by the average
            2008 gas market price as reported
            by the U.S. Energy Information              Offshore Energy
            Administration.                             and Minerals Management

        	   ◦ Calculate the royalty values by multi-        The MMS plays a key role in America’s ener-
            plying the market value by the royalty      gy supply by managing the mineral resources on
            rate of 12.5 percent.                       1.7 billion acres of the Outer Continental Shelf.
                                                        This includes managing Renewable Energy Pro-
                                                        grams as well as offshore oil and gas leasing in
     Bureau of Land Management
                                                        federal waters. The OEMM’s oversight and regu-
         BLM manages more federal land than any         latory framework ensure production and drilling
     other agency – 253 million surface acres as well   are done in an environmentally responsible man-
     as 700 million sub-surface acres of mineral es-    ner, and done safely. OEMM is responsible for
     tate. The BLM reviews and approves permits and     ensuring that the U.S. Government receives fair
     licenses from companies to explore, develop, and   market value for acreage made available for leas-




10
ing and that any oil and gas activities conserve     fuel in the plant operations will be considered as
resources, operate safely, and take maximum          being utilized for beneficial purposes. In addi-
steps to protect the environment.                    tion, gas which is produced from a lease, com-
                                                     munitized tract, or unitized participating area
                                                     and which, in accordance with a plan approved
Guidance                                             by the Supervisor, is reinjected into wells or
                                                     formations subject to that same lease, same
Notice to Lessees and Operators of Onshore
                                                     communitized tract, or same participating area
Federal and Indian Oil and Gas Leases
                                                     for the purpose of increasing ultimate recovery
(NTL-4A): Royalty or Compensation for Oil or
                                                     shall be considered as being used for beneficial
Gas Lost is the BLM guidance that was signed
                                                     purposes; provided, however, that royalty will
January 1, 1980. The guidance states no royalty
                                                     be charged on the gas used for this purpose at
obligation shall accrue as to the produced
                                                     the time it is finally produced and sold.
oil or gas which (1) is used on the same
lease, communitized tract, or same unitized
                                                     Code of Federal Regulations 30 Sec. 250.1203
participating area for beneficial purposes
                                                     states that gas used on-lease [offshore] must be
or (2) the Supervisor determines to have
                                                     measured or estimated and the applicable docu-
been unavoidably lost. The guidance defines
                                                     mentation must be maintained at the field loca-
beneficial use as oil or gas which is produced
                                                     tion for two years.
from a lease, communitized tract, or unitized
participating area and which is used on or for the
                                                     OIG Management Advisory of Investigative
benefit of that same lease, same communitized
                                                     Results, June 11, 2009 advises that: “To en-
tract or same unitized participating area for
                                                     hance the ability of MMS and BLM to readily
operating or producing purposes such as (1)
                                                     identify unapproved deductions for beneficial
fuel in lifting oil or gas (2) fuel in the heating
                                                     gas used on lease claimed by operators, we
of oil or gas for the purpose of placing it in a
                                                     recommend that BLM and MMS work together
merchantable condition, (3) fuel in compressing
                                                     to develop and implement a notice and verifica-
gas for the purpose of placing it in a marketable
                                                     tion process for the approval of deductions for
condition, or (4) fuel for firing steam generators
                                                     beneficial gas used on lease. Implementation of
for the enhanced recovery of oil. Gas used
                                                     this recommendation will ensure that MMS is
for beneficial purposes shall also include that
                                                     made aware of BLM beneficial use approvals so
which is produced from a lease, communitized
                                                     that MMS can identify and reject unapproved
tract, or unitized participating area and which
                                                     deductions for beneficial gas used on lease.”
is consumed on or for the benefit of that same
lease, same communitized tract or same unitized
participating area (1) as fuel for drilling rig
engines, (2) as the source of actuating automatic
valves at production facilities, or (3) with
the prior approval of the Supervisor, as the
circulation medium during drilling operations.

     Where the produced gas is processed
through a gasoline plant and royalty settlement
is based on the residue gas and other products
at the tailgate of the plant, the gas consumed as




                                                                                                     11
                                      


        Report Fraud, Waste, Abuse,   
           and Mismanagement
                                        
                 Fraud, waste, and abuse in government 
                 concern everyone:  Office of Inspector  
                                        
                 General staff, Departmental employees, 
                   and the general public.  We actively 
                 solicit allegations of any inefficient and 
                   wastef ul practices, fraud, and abuse 
                 related to Departmental or Insular Area 
                programs and operations.  You can report
                     allegations to us in several ways.  
                                      
                                      
                                          
                                      
                                      
    By  Mail :            U.S. Department of the Interior  
                          Office of Inspector General  
                          Mail Stop 4428 MIB  
                          1849 C Street, NW  
                          Washington, D.C. 20240  
     
    By Phone  :           24‐Hour Toll Free               800‐424‐5081  
                          Washington Metro Area           703‐487‐5435  
     
    By Fax:               703‐487‐5402
     
    By Internet :         www. doioig.gov /hotline
 
                                                                            
